HHS/OIG, Audit -"Graduate Medical Education for Dental Residents Claimed by the
New York University Hospitals Center for Calendar Years 2000 through 2002,"(A-02-04-01008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate Medical Education for Dental Residents Claimed by the
New York University Hospitals Center for Calendar Years 2000 through 2002," (A-02-04-01008)
May 3, 2006
Complete
Text of Report is available in PDF format (438 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether New York University Hospitals Center (the Hospital)
included the appropriate number of dental residents in its full-time equivalent (FTE) counts
when computing Medicare graduate medical education (GME) payments for calendar years (CYs)
2000 through 2002.  The Hospital inappropriately included dental residents in its FTE
counts for CY 2002.  Contrary to Federal regulations, the Hospital (1) inaccurately
recorded resident days worked and (2) inappropriately claimed the time of a resident who
had exceeded his initial residency period.  The number of FTE residents claimed by the
Hospital included didactic time, i.e., classroom time, for residents when working in nonhospital
settings.
We recommended that the Hospital:  (1) file an amended cost report to refund of $10,783
associated with the overstated FTEs; (2) use the results of this audit to help educate staff;
(3) determine whether errors similar to those identified in our review occurred in Medicare
cost reports after CY 2002 and refund any overpayments; and (4) work with CMS to resolve
the FTEs corresponding to the didactic time of residents assigned to nonhospital settings.  The
Hospital concurred with three of our four recommendations.  The Hospital acknowledged
that it claimed the didactic time of residents assigned to nonhospital settings but believed
that the time was allowable.